   June 27, 2003




Information Technology
Management

Defense Civilian Personnel Data
System Functionality and User
Satisfaction
(D-2003-110)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AutoRIF               Automated Reduction-in-Force
CATS                  Complaints Action Tracking System
COREDOC               Core Documents
CPMS                  Civilian Personnel Management Service
DCPDS                 Defense Civilian Personnel Data System
EOPF                  Electronic Official Personnel Folder
HR                    Human Resources
ORD                   Operational Requirements Document
OTA                   Oracle Training Administration
DISTRIBUTION:
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Director, Defense Commissary Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Deputy Under Secretary of Defense (Civilian Personnel Policy)
Naval Inspector General
Auditor General, Department of the Army
Director, Department of Defense Education Activity
Director, Washington Headquarters Services
Chief, National Guard Bureau
Director, Civilian Personnel Management Service
         Office of the Inspector General of the Department of Defense
Report No. D-2003-110                                                     June 27, 2003
  (Project No. D2001LF-0142.001)

                    Defense Civilian Personnel Data System
                      Functionality and User Satisfaction

                                   Executive Summary

Who Should Read This Report and Why? Civilian personnel policy makers, personnel
managers, human resources personnel responsible for processing civilian personnel
actions, and the users of their services will be interested in this report. The report
provides information regarding the Defense Civilian Personnel Data System (DCPDS)
used to process civilian personnel actions.

Background. DCPDS is the DoD human resources information system designed to
support civilian personnel operations. The Oracle Federal Human Resources application
is the major module in the system, replacing numerous personnel systems used across
DoD. The system was designed to capitalize on new technology to improve and simplify
the processing of personnel actions. Deployment of the system began in October 1999
and was completed on September 27, 2002. The system provides human resources
services to 22 regional service centers or regional equivalents, 302 customer support
units, and approximately 730,000 civilian employees.

The Civilian Personnel Management Service has the responsibility for functional and
technical oversight of the system, including deployment, maintenance, and enhancements.
It contracted with Lockheed Martin Systems Integration for system support, software
maintenance, and operation of a user help desk 24 hours a day, 7 days a week. Civilian
Personnel Management Service costs for the system from FY 1995 through FY 2002
were more than $150 million.

Results. DoD achieved standardization of basic civilian personnel processing and
reduced its personnel staffing levels by implementing regionalization and modernizing its
systems. However, the Military Departments, the National Guard Bureau, and Defense
organizations did not fully use the capabilities of DCPDS and most added or planned to
add nonstandard applications to the system to support their business practices. DCPDS
users also had to perform numerous workarounds and received frequent software patches
to make the system work. As a result, DoD did not fully achieve its desired goals for
system standardization and for increased performance efficiencies through the
implementation of DCPDS. Issuance of policy that clearly outlines the roles and
responsibilities of the Civilian Personnel Management Service and the DCPDS users, in
coordination with a comprehensive systems improvement plan, including a user survey,
should improve the functionality of the system, reduce reliance on nonstandard
applications, increase system standardization, and improve productivity. (See the Finding
section of the report for the detailed recommendations.)

Management Actions Taken. To better manage the proliferation of nonstandard
applications in use or planned, the Civilian Personnel Management Service established
the Systems Innovation Subcommittee to review all nonstandard applications and
determine which should be considered for DoD-wide implementation. For example, in
February 2003, the Civilian Personnel Management Service awarded a contract for an
electronic official personnel folder application for DoD-wide implementation. To
provide information on processing personnel actions, workarounds, and software patches,
the Army Civilian Personnel Operations Center Management Agency developed an
Internet site that provides excellent information for all users of the system, worldwide.

Management Comments and Audit Response. The Deputy Under Secretary of
Defense (Civilian Personnel Policy) partially concurred with the finding and
recommendations. The Deputy Under Secretary did not agree that the nonstandard
applications were developed because of inadequacies in DCPDS and further stated that
resistance by the users to standard business processes gave rise to the difficulties in
achieving standardization. The Deputy Under Secretary disagreed that CPMS did not
have clear authority to require the use of the DCPDS modules and manage the
nonstandard applications, but concurred with the recommendations to issue policy
outlining roles and responsibilities and clearly define DCPDS capabilities. Although the
Deputy Under Secretary did not concur with the recommendation concerning the systems
improvement plan, which included conducting a survey of all DCPDS users, such a
survey was conducted in March and April 2003.

The Army concurred and stated that all Army nonstandard applications have been or will
be submitted for approval. The Navy provided information concerning its use of one of
the modules in the DCPDS software suite and outlined its concerns with the training
module and the interface of DCPDS with the Navy Marine Corps Intranet; however, it did
not address the finding or the recommendations. The Air Force concurred with the
finding and recommendations, requesting user involvement in the development of the
policy and the systems improvement plan. The Air Force indicated that its business
practices may be modified once the system deficiencies are corrected and other system
improvements are accomplished. The National Guard Bureau provided additional
information regarding its use of two of the modules in the DCPDS suite and stated that
the electronic official personnel folder was no longer a nonstandard application. The
Defense Commissary Agency concurred, agreeing to revise its business practices after the
software problems have been corrected and critical deficiencies addressed. The Defense
Commissary Agency also provided additional information regarding its use of one of the
modules in DCPDS. The Defense Logistics Agency concurred with the finding but
did not address the recommendations. The Department of Defense Education Activity
and Washington Headquarters Services provided comments for suggested wording
changes in the report, but did not address the recommendations. The Defense Finance
and Accounting Service did not respond to the draft report. See the Finding section of the
report for a discussion of management comments and the Management Comments section
of the report for the complete text of the comments.

The Air Force, the National Guard Bureau, and the Defense Commissary Agency
comments are fully responsive and additional comments are not required. We request
that the Deputy Under Secretary of Defense (Civilian Personnel Policy) reconsider and
provide additional comments regarding the recommendation to develop a systems
improvement plan. We also request that the Army; the Navy; and the Directors of the
Defense Finance and Accounting Service, the Defense Logistics Agency, the Department
of Defense Education Activity, and Washington Headquarters Services provide
comments on the final report. We request that comments on the final report
recommendations, as indicated in Table 4 (page 29), be provided by August 27, 2003.



                                            ii
Table of Contents

Executive Summary                                                     i

Background                                                           1

Objectives                                                           2

Finding
     DCPDS Functionality and Performance                             3

Appendixes
     A. Scope and Methodology                                        30
          Management Control Program Review                          31
          Prior Coverage                                             32
     B. DCPDS Modules                                                33
     C. Patch Process                                                34
     D. Report Distribution                                          36

Management Comments
     Deputy Under Secretary of Defense (Civilian Personnel Policy)   39
     Department of the Army                                          48
     Department of the Navy                                          50
     Department of the Air Force                                     53
     National Guard Bureau                                           56
     Defense Commissary Agency                                       57
     Defense Logistics Agency                                        59
     Department of Defense Education Activity                        60
     Washington Headquarters Services                                69
Background
           Defense Civilian Personnel Data System. The Defense Civilian Personnel Data
           System (DCPDS) is the DoD human resources (HR) information system designed
           to support civilian personnel operations. The development of DCPDS was
           directed in Program Budget Decision 711, “Corporate Information Management
           Initiatives,” December 5, 1994. The major module in the DCPDS suite is Oracle
           Federal HR, a commercial off-the-shelf software application, which has been
           augmented to support DoD. DCPDS replaced numerous personnel systems used
           across DoD, including a previous version of DCPDS, known as the legacy
           system.1 DCPDS was designed to capitalize on new technology to improve and
           simplify the processing of personnel actions, the retrieval of civilian workforce
           information, and the delivery of personnel services.

           In addition to the Oracle Federal HR module, which performs basic personnel
           transaction processing, there are five modules in the DCPDS suite—Automated
           Reduction-in-Force (AutoRIF), Complaints Action Tracking System (CATS),
           Core Documents (COREDOC), Oracle Training Administration (OTA), and
           Resumix. A brief description of the six modules composing DCPDS is at
           Appendix B.

           Deployment of DCPDS began in October 1999 to the first three sites for
           operational testing and evaluation. Full deployment was completed on
           September 27, 2002, when the final three sites were implemented. DCPDS
           provides HR services for approximately 730,000 civilian employees.

           Civilian Personnel Management Service. The Civilian Personnel Management
           Service (CPMS), an organization under the Deputy Under Secretary of Defense
           (Civilian Personnel Policy), Office of the Under Secretary of Defense for
           Personnel and Readiness, has the responsibility for functional and technical
           oversight of DCPDS. It oversees the deployment, maintenance, and enhancement
           of DCPDS. Further, CPMS is responsible for developing the users guide and
           training for the initial system and any major system upgrades. CPMS contracted
           with Lockheed Martin Systems Integration (Lockheed Martin) for system support,
           software maintenance, and operation of a user help desk 24 hours a day, 7 days a
           week.

           HR Regionalization. DCPDS was implemented to support the regionalization of
           civilian personnel operations. In a November 10, 1993, Program Decision
           Memorandum, DoD established the requirement for regionalization and set the
           goal for decreasing HR staffing in comparison with the civilian population
           serviced. Under regionalization, the stand-alone, full-service personnel offices
           were replaced with regional service centers and customer support units. The
           regional service centers primarily perform the routine HR processes that can be
           centralized, while the decentralized customer support units handle face-to-face
           resolution of HR issues.

1
    The current DCPDS was previously referred to as modern DCPDS. However, after full deployment was
     completed, the legacy system was decommissioned and the prefix “modern” was no longer needed to
     differentiate the two versions.



                                                    1
            Component Users. There are 22 regional service centers or regional equivalents2
            operated by 9 Component users of DCPDS—the Army, the Navy, the Air Force,
            the National Guard Bureau, the Defense Commissary Agency, the Defense
            Finance and Accounting Service, the Defense Logistics Agency, the Department
            of Defense Education Activity, and Washington Headquarters Services (the
            Components). Each Component has one regional service center except the Army,
            which has eight, and the Navy, which has seven. In addition, DCPDS is at
            302 customer support units, and approximately 53,000 users3 at Defense
            organizations4 worldwide have access to the system. Each of the Components
            provides civilian personnel services to its own organization and, in some cases, to
            other Defense organizations, such as the Defense Information Systems Agency
            and the Office of the Inspector General of the Department of Defense.

            Costs for Modernization and Regionalization. CPMS costs for DCPDS from
            FY 1995 through FY 2002 were more than $150 million. CPMS has requested an
            average of $46 million per year for maintenance and upgrades to DCPDS for
            FY 2003 through FY 2006. However, the National Defense Appropriations Act
            for FY 2003 reduced the DCPDS budget by $20 million. In addition to CPMS
            costs, the Components spent about $270 million to implement regionalization and
            support system modernization between FY 1995 and FY 2000.


Objectives
            Our overall audit objective was to determine the functionality of DCPDS and user
            satisfaction with the system. We also reviewed the adequacy of the management
            control program as it related to the overall objective. See Appendix A for a
            discussion of the scope and methodology, our review of the management control
            program, and prior coverage related to the objectives.




2
    Regional equivalents are large, consolidated personnel offices that are not officially recognized as regional
    service centers.
3
    Users include personnel specialists at the regional service centers and customer support units and the
    administrative and managerial personnel responsible for initiating personnel actions.
4
    The Defense intelligence agencies do not use DCPDS.



                                                         2
                     DCPDS Functionality and Performance
                     DoD achieved standardization of basic civilian personnel processing and
                     reduced its HR personnel staffing levels by implementing regionalization
                     and modernizing its systems. However, the Components did not fully use
                     the capabilities of DCPDS and most added or planned to add nonstandard
                     applications to the system to support Component business practices. The
                     Components also had to perform numerous workarounds5 and received
                     frequent software patches6 to make the system work. Some of the
                     nonstandard applications were developed and workarounds and software
                     patches were needed because DCPDS was deployed before it could
                     efficiently perform all the functions specified in its operational
                     requirements document (ORD). In addition, the Components often did not
                     modify their business practices to accommodate the system, choosing
                     instead to use nonstandard applications, some of which were partially
                     duplicative of DCPDS capabilities. Further, CPMS did not have clear
                     authority to require the Components to use all of the modules of DCPDS
                     and did not have clear authority to manage the development and
                     implementation of nonstandard applications. As a result, DoD did not
                     fully achieve its desired goals for system standardization and for increased
                     performance efficiencies through the implementation of DCPDS.


DCPDS
            System Design. DCPDS uses a relational database and operates on client-server
            architecture with regional databases rather than a centralized mainframe. In
            addition, DCPDS uses a standard Windows format with point-and-click
            maneuvering, drop-down menus, and plain English text instead of the numerous
            data identification numbers7 that were used in the legacy system.

            The commercial off-the-shelf Oracle Federal HR application was augmented by
            DoD to support additional DoD civilian personnel requirements, including
            personnel processing for overseas local national8 and nonappropriated fund
            employees. CPMS reported there are 11 unique local national applications
            supporting requirements for 17 countries. In addition, CPMS stated the system
            supports 12 demonstration projects concerning civilian employee pay and
            benefits, such as pay banding. In addition to general civilian personnel processing
            requirements, the system must support a wide range of civilian personnel,
            including National Guard personnel, teachers, lawyers, and civilian mariners.



5
    A workaround is a temporary procedure employed by the user to bypass or avoid a nonworking system
    feature.
6
    Patches are periodic releases for updating and correcting system software.
7
    Data identification numbers were the codes used in the legacy system to identify data fields.
8
    Local national employees are non-U.S. citizens employed by DoD at overseas locations.



                                                         3
            System Maintenance. Maintenance of the system is a shared responsibility.
            Lockheed Martin is responsible for maintaining the customized portions of the
            CATS, Oracle Federal HR, OTA, and Resumix modules. Oracle Corporation is
            responsible for maintaining the basic application for the first three modules.
            Yahoo Corporation maintains the basic application for Resumix. The two
            remaining modules, AutoRIF and COREDOC, are custom applications within
            DCPDS for which Lockheed Martin has complete upgrade and maintenance
            responsibility.

            Upgrading the System. CPMS and Lockheed Martin are working on the
            migration of the DCPDS application software from Oracle Federal HR
            version 10.7 to version 11i. That migration will transform the DCPDS application
            from a client-server based application to a Web-based computing environment, in
            which users will access DCPDS via a standard Web browser, such as Internet
            Explorer or Netscape Navigator. The upgrade is important to DoD because it
            takes advantage of Internet technology and improves navigation within the
            system. For example, Oracle Federal HR version 11i will allow the Navy to
            incorporate DCPDS into its Navy Marine Corps Intranet.9 CPMS postponed
            upgrading the system until full deployment of DCPDS had been achieved. CPMS
            plans to upgrade the system in July 2003.


Component Use of DCPDS
            DoD achieved standardization for basic civilian personnel processing and reduced
            its HR personnel staffing levels by implementing regionalization and modernizing
            its systems. However, the Components did not fully use the capabilities of
            DCPDS and most added or planned to add nonstandard applications to the system
            to support Component business practices.

            Use of DCPDS Modules. Of the six modules in DCPDS, no Component had
            implemented all six modules and only one module, Oracle Federal HR, was used
            by all nine Components. Components indicated they were not using some
            modules because the modules were not working correctly or did not adequately
            support the Component’s business practices. Table 1 summarizes Component use
            of DCPDS modules.




9
    Navy Marine Corps Intranet is a long-term initiative of the Department of the Navy and the private sector
    to deliver a single integrated and coherent Department-wide network for the Navy and the Marine Corps.



                                                        4
                     Table 1. Component Use of DCPDS Modules

                           Oracle
                           Federal
        Component            HR       AutoRIF    CATS     COREDOC       OTA        Resumix

 Army                        Yes       Yes        No1        Yes2,3     Yes2        Yes
                                                                  2          4
 Navy                        Yes       Yes        No         Yes        No          Yes
 Air Force                   Yes       Yes        No         No         No          Yes3
 National Guard Bureau       Yes        No5       No1        No         No6         No
                                                                             2
 Defense Commissary          Yes       Yes        No         No         Yes         No
  Agency
 Defense Finance and         Yes       Yes        Yes        No         No          Yes3
  Accounting Service
 Defense Logistics           Yes       Yes        No1        Yes2       No          Yes2,3
  Agency
 Department of Defense       Yes        No5       No         Yes2       No          No
  Education Activity
 Washington                  Yes       Yes        No         Yes2       Yes2        Yes
  Headquarters Services
 1
  Module will be implemented after completion of Component-required actions.
 2
  Module had been implemented but was used in a limited capacity.
 3
  Module had been implemented but was enhanced by the Component with nonstandard
  applications.
 4
  Module will be implemented after software errors in the module are corrected.
 5
  Module may be used in the future if it meets Component needs.
 6
  Module implementation is included in long-range planning.


        AutoRIF. AutoRIF was used by seven of the nine Components. National
Guard Bureau officials conducted an evaluation of the AutoRIF module and
determined that the specialized reduction-in-force procedures needed for the
National Guard technicians made the module impractical. If the module is
modified to meet Bureau needs, use of the application may be reassessed. The
other nonuser of the module, the Department of Defense Education Activity, plans
to evaluate AutoRIF in a live situation before making a final decision on using the
module in the event of a staff reduction.

        CATS. The CATS module was used by only one of the nine
Components—the Defense Finance and Accounting Service. Representatives at
three other Components (the Army, the National Guard Bureau, and the Defense
Logistics Agency) stated they would implement CATS after completion of
internal actions. The Army is training its equal employment opportunity
personnel before implementing CATS. The National Guard Bureau indicated it
had to develop in-house documentation before CATS could be implemented. The
Defense Logistics Agency indicated that an access security issue needed to be
resolved before CATS could be implemented. The remaining five Components


                                        5
had chosen alternative methods or systems to satisfy the requirement for tracking
equal employment opportunity complaints.

       COREDOC. Of the nine Components, five Components were using
COREDOC. Those Components—the Army, the Navy, the Defense Logistics
Agency, the Department of Defense Education Activity, and Washington
Headquarters Services—used the module in a limited capacity. The Army had
also enhanced the module with a nonstandard application. The remaining four
Components were using alternative methods for the staffing and classification
process.

        OTA. Only three components, the Army, the Defense Commissary
Agency, and Washington Headquarters Services, used OTA, and that use was
limited. The Defense Commissary Agency implemented the module in
June 2003. Two other Components, the Navy and the National Guard Bureau,
delayed implementation. The Navy deferred implementing the module until
software errors in the application are corrected. The National Guard Bureau
included OTA implementation in its long-range planning. The remaining four
Components stated that they do not use OTA for their training administration.

        Resumix. Of the nine Components, six used Resumix and three did not.
The Defense Commissary Agency and the Department of Defense Education
Activity did not use the module because it did not meet their business practices or
functional requirements for recruiting and hiring grocery clerks or teachers. The
National Guard Bureau did not use Resumix because it did not meet their business
practices or functional requirements for recruiting or hiring National Guard
personnel. In addition, the three Components not using Resumix stated that cost
was also a factor in their decision not to use the module. Of the six Components
using Resumix, three (the Air Force, the Defense Finance and Accounting
Service, and the Defense Logistics Agency) enhanced the module’s capability
with their own unique software. In addition, the Defense Logistics Agency used
the module in a limited capacity.

Use of Nonstandard Applications. The Components added nonstandard
applications to DCPDS to support their business practices. The nonstandard
applications were used to either enhance the DCPDS modules (adding a capability
that was not in the original design) or provide functionality that was missing or
considered inadequate in the DCPDS suite. According to CPMS, DCPDS is
capable of processing all personnel actions required by the Office of Personnel
Management and the nonstandard applications often duplicate DCPDS
functionality. In addition, CPMS personnel stated that the nonstandard
applications create additional complexity for system management and
maintenance, making patch releases, system upgrades, and DoD enhancements
more difficult and expensive.

In early 2002, CPMS requested that each Component provide a list of its
nonstandard applications. From that input, CPMS compiled a DoD-wide list of
nonstandard applications and formed a working group to determine which, if any,




                                     6
            should be incorporated into the DCPDS suite. The list included 5410 nonstandard
            applications identified by 6 of the 9 Components. During visits to the
            9 Component program managers, 10 of the 22 regional service centers, and 6 of
            the 302 customer support units, we identified 14 nonstandard applications being
            used that were not on the DoD-wide list. Therefore, at least 68 nonstandard
            applications were in use or planned by the Components. Table 2 summarizes the
            use of nonstandard applications.

                          Table 2. Component Use of Nonstandard Applications

                         Component                                 In Use          Planned       Total
            Army                                                      11              6            17
            Navy                                                       5              9            14
            Air Force                                                 15              0            15
            National Guard Bureau                                      0              0             0
            Defense Commissary Agency                                  0              0             0
            Defense Finance and Accounting Service                     1              0             1
            Defense Logistics Agency                                   3              0             3
            Department of Defense Education Activity                   9              3            12
            Washington Headquarters Services                           6              0             6

              Total                                                  50              18            68


                    Army. The Army provided CPMS with a list of 14 nonstandard
            applications. During our visits to the Army program manager, 3 of the 8 Army
            regional service centers, and 2 of the 108 Army customer support units, we
            identified 3 additional nonstandard applications. Of the 17 total applications,
            11 were fully or partially in use and 6 were in a development or concept phase.

                            Applications in Use. Of the 11 nonstandard applications in use by
            the Army, 7 are enhancements to DCPDS and 4 provide functionality not
            available in the system. Of the seven enhancements, three provide users with the
            ability to download data from DCPDS to make cost and workforce projections,
            two are database applications that provide easy access to employee contact and
            historical data, and two provide users with the ability to generate productivity
            reports at the unit or Army-wide level. The other four nonstandard applications in
            use provide functionality missing in DCPDS, including a position description
            library used to simplify the classification process, a capability to perform certain
            mass updates to employee files, a tool similar to Resumix for local national
            employees, and a printing tool that allows remote printing of reports.


10
     Although the DoD-wide list actually contained 59 nonstandard applications, we considered only 54. The
     remaining five nonstandard applications involved the electronic official personnel folder application that
     has become a DoD standard application within DCPDS.



                                                         7
                            Planned Applications. Of the six planned nonstandard
            applications, five will be enhancements to DCPDS and one will provide for
            functionality considered inadequate in DCPDS. Two of the five enhancements
            are designed to streamline the processing of personnel actions—one for awards
            and appraisals, the other to support the priority placement program. The
            remaining three enhancements will include an additional application to measure
            productivity regarding workload and processing statistics, a database that stores
            data concerning deployed civilian employees, and a life-cycle management system
            for centrally funded Army and DoD training programs. The application to provide
            for functionality considered inadequate in DCPDS will provide users with the
            capability to correctly compute overseas allowances.

                   Two of the nonstandard applications under development appear to
            duplicate functionality. The Army appears to be developing a second application
            to measure regional service center productivity, and the Army training
            management application appears to duplicate the functionality that OTA was to
            provide.

                    Navy. The Navy provided CPMS with a list of 12 nonstandard
            applications. During our visits to the Navy program manager, 3 of the 7 Navy
            regional service centers, and 2 of the 63 Navy customer support units, we
            identified 2 additional nonstandard applications. Of the 14 total nonstandard
            applications, 5 were fully or partially in use and 9 were in a development or
            concept phase.

                           Applications in Use. Of the five nonstandard applications in use
            by the Navy, three are enhancements to DCPDS and two provide for functionality
            the Navy considered inadequate in DCPDS. Two of the three enhancements
            support the recruitment process: one streamlines the use of Resumix and one
            provides recruitment metrics reports. The other enhancement provides civilian
            employees with the ability to update benefits and entitlements using a Web-based
            system. Of the two applications that provide for functionality considered
            inadequate in DCPDS, one is used instead of CATS for processing equal
            employment opportunity complaints and the other is used instead of OTA to
            support training management.

                             Planned Applications. Of the nine planned nonstandard
            applications, seven will be enhancements to DCPDS and two will provide for
            functionality the Navy considered inadequate in DCPDS. Four of the seven
            enhancements streamline the use of Resumix.11 The remaining three
            enhancements include a single portal to access Navy HR systems, an interface to a
            separate Navy scheduling and reporting system, and a feature that allows civilian
            employees to complete in-processing documents using a Web-based system. Of
            the two applications that will provide for functionality considered inadequate in
            DCPDS, one is for processing equal employment opportunity complaints and the
            other is for training management. The planned nonstandard applications for
            processing equal employment opportunity complaints and managing training


11
     We were informed by the Navy that the initial plans for modifying Resumix have changed but the
     functional requirements still exist and alternative methods are being pursued.



                                                      8
            requirements are different from the nonstandard applications already in use by
            the Navy.

                    According to comments on the DoD-wide list, CPMS considers that the
            Navy application to produce recruitment metrics reports duplicates the
            productivity reporting function available in Oracle Federal HR and that the Navy
            training management application duplicates functionality available in OTA. We
            agree with the CPMS assessment. In addition, it appears that the Navy is
            developing additional equal employment opportunity and training management
            applications.

                    Air Force. The Air Force provided CPMS with a list of 10 nonstandard
            applications. During our visits to the Air Force program manager, the Air Force
            regional service center, and 2 of the 94 Air Force customer support units, we
            identified 5 additional nonstandard applications. All 15 of the nonstandard
            applications were in use.

                    Of the 15 nonstandard applications, 11 are enhancements to DCPDS and
            4 provide for functionality either missing or considered by the Air Force to be
            inadequate in DCPDS. Four of the enhancements provide electronic capabilities
            for civilian employees: two to update entitlements and benefits, one for career
            program registration, and one to complete in-processing documents. An
            additional four of the enhancements support the recruitment process: two
            streamline the use of Resumix, one streamlines job vacancy searches, and one
            provides an alternative method to rate and rank applicants. Two other
            enhancements support the Air Force electronic official personnel folder (EOPF)
            application,12 which is different from the one selected as the DCPDS standard:
            one is the actual data file library and the other is an interface that ensures
            documentation flows from DCPDS into the EOPF. The final enhancement
            provides DCPDS users with the capability to produce productivity reports. Of the
            four applications that provide for functionality considered missing or inadequate
            in DCPDS, one is a position description library used to simplify the classification
            process, one is used instead of the CATS module for processing equal
            employment opportunity complaints, and two different applications are used for
            managing training.

                   According to comments on the DoD-wide list, CPMS considers that the
            Air Force nonstandard application providing an alternative method to rate and
            rank applicants duplicates functionality available in Resumix. We believe that the
            application partially duplicates Resumix capabilities. The application that
            generates productivity reports, the application for processing equal employment
            opportunity complaints, and the two applications for managing training were not
            included on the Air Force list provided to CPMS and, therefore, CPMS did not
            comment on those applications. However, based on the CPMS position on similar
            applications, we believe that CPMS would consider that the applications duplicate
            functionality provided in Oracle Federal HR, CATS, and OTA, respectively.

                   National Guard Bureau. The National Guard Bureau did not have any
            nonstandard applications in use or planned.
12
     The Air Force EOPF application has been operational since October 1996.



                                                      9
                     Defense Organizations. The Defense organizations provided CPMS with
            a list of 18 nonstandard applications. During our visits to the five Defense
            organization program managers and the regional service centers for the Defense
            Finance and Accounting Service, the Department of Defense Education Activity,
            and Washington Headquarters Services, we identified four additional nonstandard
            applications. Of the 22 total nonstandard applications, 19 were fully or partially
            in use and 3 were in a development or concept phase.

                            Applications in Use. Of the 19 nonstandard applications in use by
            the Defense organizations, 14 are enhancements and 5 provide for functionality
            missing or considered by the Defense organizations to be inadequate in DCPDS.
            Six of the enhancements streamline the use of Resumix. Four of the
            enhancements provide the capability to track household goods shipments, teacher
            appointments and transfers, personnel actions, and benefits. Three of the
            enhancements provide electronic capabilities for civilian employees: one can be
            used to update entitlements and benefits, one provides forms for overseas
            allowances, and the other is a travel voucher system.13 The last enhancement
            provides a database for managers. The five nonstandard applications in use that
            provide for functionality missing or considered inadequate include a position
            description library used to simplify the classification process, a system used for
            processing equal employment opportunity complaints, two tools that provide
            Resumix-type functionality for teachers, and a training management application.

                            Planned Applications. Of the three planned nonstandard
            applications, all are considered by the Defense organizations to be enhancements
            to DCPDS. One of the applications will provide a Web-based capability for
            teachers to apply for transfers, one is a tracking system for official personnel
            folders, and one provides users with the ability to generate productivity reports.

                    According to comments on the DoD-wide list, CPMS considers that the
            tracking system for personnel actions duplicates functionality provided by Oracle
            Federal HR. CPMS also commented that the teacher rating, ranking, and tracking
            system duplicates functionality provided by Resumix. We believe that the
            application partially duplicates Resumix capabilities. In addition, although CPMS
            did not state on the DoD-wide list that the system used to process equal
            employment opportunity duplicates functionality in CATS, we believe that the
            system does. The training application was not included on the Defense
            organization list provided to CPMS and, therefore, CPMS did not comment on the
            application. However, based on the CPMS position on similar applications, we
            believe CPMS would consider that the application duplicates functionality
            provided in OTA.




13
     Because the capability to track household goods shipments and the travel voucher system were reported to
     CPMS as enhancements, we included them in our analysis; however, we do not consider them
     enhancements to DCPDS. Those functions are generally considered travel actions rather than personnel
     actions.



                                                      10
System Workarounds and Patches
            The Components had to perform numerous workarounds and received frequent
            software patches to make DCPDS work.

            System Workarounds. The Components had to perform numerous workarounds
            to process personnel actions in DCPDS. Workarounds allow the users to
            complete actions in DCPDS by working around the system, in a sense tricking the
            system so a personnel action can be completed. In early 2002, CPMS reported
            there were more than 400 workarounds in use related to open system problem
            reports14 associated with DCPDS. By the end of July 2002, CPMS reported that
            the number of workarounds in use had decreased to approximately 175. The
            number of workarounds had been further reduced to 81 (related to 113 problem
            reports assigned to Lockheed Martin) by early February 2003. Several users
            stated that they were not satisfied with the large number of workarounds needed
            for DCPDS, stating that while some workarounds were simple and easy to
            remember, others were complex.

            Of the nine Components, representatives from seven stated that the numerous
            workarounds were negatively impacting the processing of civilian personnel
            actions. The Components indicated that using workarounds to process personnel
            actions was not efficient. Further, even when a problem report is closed and the
            associated workaround is no longer needed, several users indicated they continued
            to use the workaround because they lacked confidence that the workaround was
            no longer necessary. We believe that the need for numerous workarounds is an
            indication of a system that is not working properly.

                    Workarounds and the Problem Reporting Process. The Components
            or CPMS, as part of the problem reporting process, developed workarounds.
            When a Component identifies a problem within DCPDS, the Component submits
            a problem report to CPMS, including a severity level from one (high) to four
            (low), depending on the effect of the problem. The severity level establishes the
            timeframe in which Lockheed Martin is to fix the problem (target recovery).15
                     •   Severity level 1 – Problem renders the computer software non-
                         operational. The target recovery is 48 hours.

                     •   Severity level 2 – Problem adversely affects mission accomplishment
                         and has no known workaround. The target recovery is 5 working days.
                         A severity level 2 problem needs to be fixed with a software patch or a
                         documented workaround. If CPMS identifies a suitable workaround,
                         the problem report may be downgraded to a severity level 3. If the
                         problem is resolved by a software patch, the problem report is closed.


14
     Problem reports are submissions from Component users to CPMS and Lockheed Martin that convey there
     is a problem in the system.
15
     Problem reports directly related to the basic Oracle Federal HR application are handled by Oracle and not
     subject to the target recovery timeframes.



                                                       11
                   •   Severity level 3 – Problem adversely affects mission accomplishment
                       but has a documented workaround; the action can be completed, but
                       not the way the system was designed to complete it. If the workaround
                       is submitted with the problem report, it is initially assigned a severity
                       level 3. CPMS stated that all severity level 3 problem reports remain
                       at level 3 until a software patch is implemented and a workaround is
                       no longer needed. Severity level 3 problem reports have a target
                       recovery of the next major patch.

                   •   Severity level 4 – System annoyances that do not keep a user from
                       processing a personnel action. These problem reports have a very low
                       priority for correction.

           CPMS notifies Components by electronic mail when a problem is fixed by a patch
           and a workaround is no longer necessary. As of February 3, 2003, there were
           306 problem reports, of which 204 were assigned to Lockheed Martin—no
           level 1, 7 level 2, 140 level 3, and 57 level 4. Of the 140 level 3 problem reports,
           27 would be closed by a pending patch release, leaving 113 open problem reports
           assigned to Lockheed Martin. Of the remaining 102 problem reports (all level 3
           or level 4), 47 were assigned to CPMS and 55 were assigned to the Components.

                  Component Issues Regarding Workarounds. In addition to the number
           of workarounds, the Components identified two other problem areas regarding the
           use of workarounds in DCPDS—insufficient documentation and lack of
           confidence that a problem would be fixed if a workaround existed.

                            Documentation of Workarounds. There was no comprehensive,
           centralized list of DCPDS workarounds available to all users. CPMS stated that
           each workaround for a problem report is formally documented in the DCPDS
           problem report tracking system, known as Remedy. However, user access to the
           information in Remedy is limited by the Components, generally to help desk
           personnel who report and track problem reports. Initially, CPMS kept a list of
           documented workarounds on its Web site. However, CPMS found it difficult to
           keep the information current and stopped maintaining the information. Therefore,
           the Components had to assume the responsibility for disseminating workaround
           information. The Army Civilian Personnel Operations Center Management
           Agency maintains a partial list of workarounds on its HR Web site16 that is
           available to all users, DoD-wide. Personnel from seven of the nine Components
           stated they relied on the Army Web site to keep informed about workarounds.
           The remaining two Components used internal methods to provide workaround
           information to their users.

                           Submitting Workarounds With Problem Reports. Four users at
           three Components stated that CPMS and Lockheed Martin do not readily fix
           problem reports that are submitted with workarounds. As a result, two users
           indicated they have not always provided a workaround when submitting a
           problem report so the problem will remain at severity level 2, thereby increasing
           the likelihood for a permanent solution instead of a documented workaround.

16
     http://www.cpocma.army.mil/mdcpds/index.htm



                                                   12
                    CPMS Actions for Reducing Problem Reports and Workarounds.
            CPMS stated that it is working to reduce the number of problem reports and
            workarounds. Quarterly, CPMS canvasses the Components to identify the most
            troublesome problems. Using that information, and considering which problem
            repairs would yield the most benefit to the users, CPMS prioritizes outstanding
            problem reports. The contractor, Lockheed Martin, is expected to reduce the total
            number of open problem reports to less than 50 by October 2003 and then
            maintain no more than 50 open problem reports of all severity levels for the
            remainder of the contract, ending September 2007. According to CPMS, the new
            contract requirement should significantly decrease the number of workarounds.

            Software Patches. Software patches are modifications to the system to enhance a
            capability or correct a problem. DCPDS frequently required patches. A listing of
            recent patches on the Army Civilian Personnel Operations Center Management
            Agency Web site17 detailed 133 patches to DCPDS from the end of July 2001
            through the end of January 2003, some major patches and other smaller ones—an
            average of more than 7 patches per month. See Appendix C for details regarding
            the patch process.

            Representatives from all nine Components stated that the implementation of
            software patches adversely impacted their personnel servicing operations. They
            reported eight specific problems. The following list summarizes the problems
            reported by the users regarding implementation of software patches, in the order
            they were most frequently reported.

                    •    The patch unexpectedly caused new problems that had not been
                         previously identified as a problem or caused previously corrected
                         problems to reappear.18

                    •    Documentation explaining the patch was not clear.

                    •    The Component was not provided sufficient time to test the patch.

                    •    Overtime or weekend hours were required to test and implement the
                         patch.19
                    •    Patches were too frequent.

                    •    Implementation of the patch created downtime.

                    •    The patch was not properly tested.

                    •    Patch changes frequently required additional training.

17
     The CPMS Web site does not provide content-related patch information on DCPDS.
18
     In an effort to prevent the patches from causing problems elsewhere in the system software, CPMS
     recently acquired Merant Change Manager software to assist Lockheed Martin with system changes. The
     software compares new code with existing code to identify possible mismatches.
19
     With the implementation of the Web-based capability in Oracle Federal HR version 11i, patch updates
     will be simplified.



                                                      13
DCPDS Functionality
    Some of the nonstandard applications were developed and workarounds and
    software patches were needed because DCPDS was deployed before it could
    efficiently perform all the functions specified in its ORD. The inefficiencies were
    of two types: the software applications did not adequately perform the functions
    required in the ORD or the functionality was missing.

    CPMS maintained that DCPDS was functioning adequately because the system is
    capable of processing all personnel actions required by the Office of Personnel
    Management. The Component program managers agreed, but noted that many of
    the actions require workarounds. However, the “Operational Requirements
    Document for the Defense Civilian Personnel Data System Modernization
    Program,” November 22, 1999, did not limit DCPDS functionality to simply
    processing Office of Personnel Management-identified personnel actions. The
    ORD includes requirements such as position management, training management,
    and workforce relations.

    Adequacy of Software Applications. When initially deployed, DCPDS lacked
    the capability to correctly perform several key functions that are directly related to
    ORD requirements. Those functions included processing several types of mass
    personnel actions, administering training requirements, and accurately generating
    reports from the DCPDS databases.

           Processing Mass Personnel Actions. When DCPDS was initially
    deployed, it did not efficiently process several types of mass personnel actions,
    two of which were specifically required in the ORD—pay adjustments and
    realignments. “The Defense Personnel Data System, Qualification Operational
    Test and Evaluation Report,” March 24, 2000, noted that the processing of four
    mass actions (appraisals, awards, pay adjustments, and realignments) had not been
    observed during operational testing. Although the report stated the system was
    operationally suitable, it recommended that the four mass action capabilities be
    operational before the system was deployed and noted that if the mass action
    capabilities were not improved, user workload and dissatisfaction with the system
    would increase.

             However, only the mass pay adjustment capability was operational in the
    initially deployed version of DCPDS. Oracle personnel stated that the only mass
    action capability that was part of the initial Oracle Federal HR system was mass
    pay adjustments; the remaining mass action functions had to be added to DCPDS
    through patches. Although deployment of DCPDS began in 1999, the capabilities
    to process mass appraisals and mass awards were not fully operational until 2002,
    more than 2 years after initial deployment. The inability to perform mass
    personnel actions required the user to process each action individually.

             Most of the Components visited identified the lack of mass action
    processing as a major flaw in the initially deployed DCPDS. Further, although the
    four mass action processing functions are now operational, seven of the nine
    Components identified processing mass actions, except mass pay adjustments, as
    still being less efficient with DCPDS than with the legacy system it replaced. For


                                          14
            example, personnel specialists at an Army regional service center noted that the
            procedures for processing mass actions in DCPDS are much more complex, time
            consuming, and prone to error. Similarly, an information systems manager at the
            Defense Logistics Agency stated that she now has to “touch,” that is access, each
            individual’s personnel file to update a common data element on mass appraisals, a
            procedure that was not necessary in the previous system.

                     Administering Training Requirements. DCPDS lacked the capability to
            efficiently administer training requirements as specified in the ORD. The ORD
            states that the function will include the capabilities to establish training needs and
            plans, acquire appropriate training courses, and post relevant information to
            employee records. The OTA module in the DCPDS suite is a commercial off-the-
            shelf Oracle product that CPMS selected to meet ORD requirements for the
            administration of training. However, Component users stated that OTA did not
            have the capability to perform all its prescribed functions. For example, several
            personnel specialists noted that OTA does not have a standardized data entry
            format or data dictionary, making entering and maintaining vendor and training
            course information almost impossible. As a result, only three of the nine
            Components used the module, and that use was limited.

                    Additionally, the Navy Office of Civilian Human Resources studied the
            OTA module and issued the results of its study in the “Report on Functionality
            Testing of the Oracle Training Administrator Module at the Human Resources
            Service Centers,” February 25, 2002. The Navy tested the OTA module at six of
            its seven regional service centers from December 3, 2001, through February 8,
            2002, to determine whether and how OTA contributed to improved program
            outcomes and processes. The report results were provided to CPMS in June 2002.
            The Navy report states that OTA did not sufficiently support business processes,
            meet necessary functionality requirements, or contribute to improved
            organizational performance. Additionally, the report states that a greater level of
            effort was required using OTA than alternative methods, including as much as
            229 percent more time than if the processing was completed manually. The Navy
            concluded that OTA substantially slowed the processing of training actions and
            that OTA had not reached the level of maturity necessary to meet basic training
            and employee development functions. The report states that OTA, as designed,
            should not be implemented. CPMS is working with Oracle and the Components
            to upgrade OTA to better meet user needs.

                    Generating Reports. Component managers noted that DCPDS did not
            accurately generate data for the Defense Manpower Data Center or for several
            mandatory reports for the Office of Personnel Management. One manager stated
            that he used data from the payroll system to create some mandatory reports
            because of concerns about the reliability of data in DCPDS. Another manager
            who used DCPDS data for the mandatory reports estimated that data errors in the
            reports had increased from around 3 percent using the legacy system to 15 percent
            to 20 percent using DCPDS.20 An information systems supervisor at one
            Component stated that she believed the data accuracy problems occurred because
            DCPDS did not have sufficient built-in edits or business rules to catch common
            errors and that CPMS had not provided guidance on how to properly extract data
20
     We did not validate the estimated increase in data errors.



                                                         15
from the system. Component managers also cited the lack of a data dictionary and
data mapping as adversely affecting the quality of the reports.

Sufficiency of Software Applications. DCPDS did not contain some necessary
and desired functions that were available in the legacy system. Several
Component program managers stated they assumed that all functionality in the
legacy system would be carried over into DCPDS. Also, the Components
identified additional desired functionality through participation in working groups.
However, DCPDS did not have all of the functional capabilities of the legacy
system and many of the desired functional enhancements had not been added to
the system. Representatives at three Components stated that they believed CPMS
placed deployment of the baseline system ahead of adding needed functionality.

CPMS stated that the Components were informed during working group meetings
that the capabilities and functionality in the legacy system would be available in
DCPDS, except the delivery method might be different. However, the legacy
system had capabilities and functionality that were not incorporated into DCPDS.
Personnel specialists at the regional service centers and the customer support units
visited identified batch printing, mass appointments, mass changes, mass routing,
and standardized ad hoc querying as important capabilities and functionality
desired by the users that were lost with the conversion from the legacy system to
DCPDS.

       •   Batch Printing – the ability to select and print forms for several
           employees at the same time. Personnel specialists at both the regional
           service center level and the customer support unit level commented
           that they lost the capability to batch print Requests for Personnel
           Actions and Notices of Personnel Actions, an important capability that
           was available in the legacy system. Instead, they have to print each
           form individually after accessing the individual’s personnel record.

       •   Mass Appointments – the capability to process a large number of
           hiring actions for the same position. An overseas regional service
           center processes appointments for approximately 1,700 summer interns
           each year. Without a mass appointment capability, redundant position
           data must be separately entered for each individual. Using the legacy
           system, the redundant data could be copied from one action and pasted
           to all similar actions. One of the regional service center managers
           stated that the process went from taking days to taking weeks to
           complete.

       •   Mass Changes – the capability to change a single data element for
           multiple records at the same time; that is, a global change. In the
           legacy system, mass changes could be accomplished by merely
           selecting the affected individuals and making one change. In DCPDS,
           the personnel file for each affected civilian employee has to be
           individually accessed and updated.

       •   Mass Routing – the capability to move a block of Requests for
           Personnel Action simultaneously from one manager or supervisor’s
           inbox to a personnel specialist’s inbox. Personnel from one


                                     16
                         Component explained that the capability was especially useful to
                         resource management office personnel because, after processing the
                         funding for a group of personnel actions received from several
                         managers, they could batch the actions and send them to the
                         appropriate personnel specialists. In DCPDS, each action must be
                         transmitted individually, a task that users find frustrating and time
                         consuming.

                     •   Standardized Ad Hoc Querying – the capability to generate ad hoc
                         reports. Although DCPDS contains several hundred standard reports,
                         many of which are used by the Components, all nine Components
                         identified DCPDS reporting capabilities as being less efficient than the
                         legacy system. The legacy system included a capability called Direct
                         English Statement Information Retrieval, known as DESIRE, that
                         facilitated querying the database and generating ad hoc reports. The
                         DESIRE feature was developed to query the simple files in the legacy
                         system, but it cannot operate with the complex relational databases in
                         DCPDS. Consequently, each Component had to purchase licenses for
                         external ad hoc query tools. CPMS identified Oracle Discoverer as the
                         DCPDS ad hoc query tool; however, the use of Oracle Discoverer was
                         not mandated. As a result, only one of the nine Components, the
                         National Guard Bureau, selected that software. Instead, for various
                         reasons, such as ease of use or Component-wide purchase of the
                         software, the query and reporting tools used by the other Components
                         are Cognos or Business Objects. The Navy and the Defense Finance
                         and Accounting Service use Cognos; the remaining six Components
                         use Business Objects.

            Change Control Board. The Change Control Board was chartered by CPMS on
            July 14, 2000, to evaluate and approve functional changes or enhancements to
            DCPDS software. The Change Control Board is chaired by the Deputy Director,
            HR Automated Systems at CPMS and includes voting members representing the
            Military Departments, the National Guard Bureau, the Defense Logistics Agency,
            Washington Headquarters Services,21 and non-Defense users.22 The users submit
            a System Change Request through Component channels to the Change Control
            Board. The Change Control Board, which meets at least quarterly, evaluates,
            approves, and prioritizes the requested changes. CPMS then tasks the support
            contractor to develop software patches to implement as many of the changes as
            possible during the quarter. The Change Control Board identified 80 outstanding
            requests, as of January 9, 2003, for functional enhancements to DCPDS.

            CPMS needs to develop a systems improvement plan. The plan should include a
            schedule, developed in coordination with the Components, for resolving the
            deficiencies in all the modules in the DCPDS suite in a timely manner, including
            incorrect processing and missing functionality. The plan should also include the
            methodology for reviewing and approving nonstandard applications. Further, the
            plan should include a survey of DCPDS users. The users surveyed should include
21
     Washington Headquarters Services has one vote that represents all the Defense organizations, except the
     Defense Logistics Agency.
22
     Non-Defense users together have one consensus vote.



                                                       17
            regional service center personnel, customer support unit personnel, and managers
            and administrative personnel who initiate personnel actions. The goal of the plan
            should be to have the Components deploy all the modules in the DCPDS suite and
            limit the development of nonstandard applications to only those for Component-
            unique issues.


Component Business Practices
            The Components often did not modify their business practices23 to accommodate
            the new requirements of the system, choosing instead to use nonstandard
            applications, some of which were partially duplicative of DCPDS capabilities.
            Before regionalization and system modernization, each Component performed
            many of the HR functions differently. The Components were not always willing
            to abandon the systems they had already implemented and on which staff had been
            trained. For example, four Components did not use and did not plan to use
            CATS. Instead, they developed and used a database, a spreadsheet, or a stand-
            alone equal employment opportunity program. With regard to COREDOC, two
            Components stated that their position description library better meets their needs.

            One regional service center manager identified that user problems cannot always
            be attributed to DCPDS not working properly and that, in some cases, the problem
            is the result of business practices. The manager acknowledged that the legacy
            system and DCPDS perform differently, and the manager had made changes to
            adapt to DCPDS. That regional service center staff expressed a higher level of
            satisfaction with DCPDS than other sites visited.

            We believe that implementing DCPDS requires a commitment from both CPMS
            and the Components. CPMS needs to ensure the system works properly and has
            the functionality to meet user needs. On the other hand, once the problems are
            resolved and the needed functionality has been added, the Components need to
            accept that DCPDS is different from previous HR processing systems and they
            need to change their business practices to accommodate the differences.


CPMS Authority
            CPMS did not have clear authority to require the Components to use all DCPDS
            modules and did not have clear authority to manage the development and
            implementation of nonstandard applications.

            DCPDS Policy. There is limited policy outlining the procedures, processes, roles,
            and responsibilities regarding the use and modification of DCPDS and the
            implementation of nonstandard applications. DoD Directive 1400.25, “DoD



23
     There are situations when business practices cannot be modified, such as union agreements.



                                                       18
Civilian Personnel Management System,” November 25, 1996, states that it is
DoD policy to:

       •   identify, jointly develop, and issue civilian personnel policies,
           procedures, and guidance for DoD-wide application;

       •   develop, deploy, and maintain a single DCPDS; and

       •   develop and maintain standard civilian personnel data.

However, the Directive does not address the role of CPMS with respect to
managing Component development and use of nonstandard applications.

The memorandums of understanding between CPMS and each Component
provide additional details regarding the roles and responsibilities of CPMS and
the Components. The memorandums of understanding state that the Director,
CPMS will “provide or approve all functional requirements and exercise
DoD-level functional management responsibility and accountability over systems
activities.” Further, the memorandums state that the Director, CPMS will work
with each Component to ensure its functional requirements are fully considered
for inclusion in DCPDS. The memorandums also state that the Components can
fund enhancements and changes that are outside the scope of the standard
DCPDS. However, the memorandums of understanding do not specifically:

       •   prevent the Components from adding nonstandard applications to the
           system,

       •   require CPMS approval for nonstandard applications, or

       •   require the Components to use all the modules in the DCPDS suite.

Control Over Nonstandard Applications. CPMS tried to manage the
proliferation of nonstandard applications implemented by the Components
through the release of two memorandums and the establishment of the Systems
Innovation Subcommittee. The memorandums to the Components were attempts
to expand the authority of CPMS in managing DCPDS, including its role
regarding the use of Component-developed nonstandard applications.

       •   Deputy Assistant Secretary of Defense (Civilian Personnel Policy)
           memorandum, “Component-Unique Human Resources System and
           Software Development Projects,” February 12, 1999 – outlined the role
           of CPMS for approving nonstandard applications developed or
           purchased by the Components.

       •   Under Secretary of Defense for Personnel and Readiness
           memorandum, “Civilian Human Resources Automation Initiatives and
           Support Structure in the DoD,” October 17, 2001 – reiterated the role
           of CPMS in regionalization, modernization, and approval of
           nonstandard applications. The memorandum included the CPMS
           authority to manage Component regionalization issues, such as the
           closure or relocation of regional service centers. That authority was


                                     19
               rejected by the Military Departments as outside the scope of the CPMS
               responsibility.

           •   The Systems Innovation Subcommittee – established in March 2002
               under the Change Control Board for reviewing nonstandard
               applications. CPMS established the subcommittee to manage the
               development and implementation of nonstandard applications. The
               subcommittee reviews, analyzes, and recommends which, if any, of the
               nonstandard applications should be considered for DoD-wide
               implementation. Enhancements to Resumix were considered by the
               Change Control Board for incorporation into DCPDS.

    CPMS and the Components need to agree on a policy that governs all roles with
    respect to DCPDS. The policy needs to specifically mandate Component use of
    all the modules in the DCPDS suite and clearly identify the role CPMS will have
    in controlling the development and implementation of nonstandard applications
    added to DCPDS. We believe some nonstandard applications are necessary.
    Therefore, CPMS and the Components need to work together through the Change
    Control Board to identify which nonstandard applications are Component-unique
    and, therefore, acceptable for the Component to develop and fund; which are not
    acceptable and should be phased out; and which should be considered for
    DoD-wide implementation.


Impact on Standardization and Performance
    As a result of the inadequacies in DCPDS, the actions taken by the Components to
    overcome those inadequacies, and the resistance of the Components to modify
    their business practices to accommodate the system, DoD did not fully achieve its
    desired goals for system standardization and for increased performance
    efficiencies through the implementation of DCPDS.

    Achievement of System Standardization. System standardization had been
    achieved for basic civilian personnel processing with the use of Oracle Federal
    HR. However, full HR system standardization had not been achieved.
    Components had chosen to not use major portions in the DCPDS suite and had
    added nonstandard applications. The DCPDS modules of Oracle Federal HR,
    AutoRIF, COREDOC, and Resumix had been used by a majority of the
    Components, although some Resumix users added nonstandard applications and
    COREDOC use was limited. However, two modules, CATS and OTA, had not
    been adopted by the majority of the Components. Instead of using those modules,
    Components took other measures to satisfy their requirements. Each Component
    has the requirement to track equal employment opportunity complaints and
    manage training, and the DCPDS modules were not meeting those requirements.
    As a result, the Components were using other automated tools or performing tasks
    manually to meet their HR requirements. An example of the impact of the lack of
    standardization can be found with DoD reporting, in that without standardized
    reporting, comparisons across Defense organizations is more difficult.




                                       20
CPMS standardized the processing of DoD civilian personnel actions by
deploying the DoD-enhanced version of Oracle Federal HR. However, CPMS did
not ensure all the modules in the DCPDS suite met ORD requirements and
operated correctly. For example, CPMS did not ensure that OTA met training
administration requirements and that Resumix supported the hiring of all types of
applicants needed by the Components.

By not controlling the implementation of nonstandard applications, there has been
software duplication. Public Law 105-261, “Strom Thurmond National Defense
Authorization Act For Fiscal Year 1999,” Sec. 331§ 2223, October 17, 1998,
requires the DoD Chief Information Officer to “provide for the elimination of
duplicate information technology . . . within and between the military departments
and Defense Agencies.” However, the CPMS lack of clear authority to manage
Component-desired enhancements, such as an EOPF application, resulted in the
emergence of duplicate applications. Some duplication can be resolved by
correcting the software, increasing DCPDS capability, or having the Components
revise their business practices. With regard to the EOPF application, the
application used by the Defense Logistics Agency was selected in February 2003
for DoD-wide implementation. Therefore, one or more of the Components will be
required to invest additional time and costs to convert to the selected application.

Because there was no requirement for standardized ad hoc querying and reporting
software, the upgrade to Oracle Federal HR version 11i may impact Component-
generated queries and reports. Further, the Office of the Inspector General of the
Department of Defense experienced the impact of the lack of standardization for
ad hoc querying software when its regional service center changed. Its original
regional service center, Washington Headquarters Services, used Business Objects
software to generate reports. Its new regional service center, the Defense Finance
and Accounting Service, used Cognos. The Office of the Inspector General had to
purchase new software, Cognos, and retrain its staff. That would not have been
required if all Components had been required to obtain the same software.

Achievement of Increased Performance Efficiencies. DoD reduced its HR
staffing; however, it had not fully achieved its desired staffing goals. Program
Budget Decision 711 states that the HR regionalization and modernization
initiative was undertaken to reduce the costs of DoD civilian personnel offices.
Regionalization was planned to increase the ratio of personnel specialists to the
civilian population serviced (the servicing ratio) from 1 to 60 to 1 to 71.
Modernization of the information system was expected to further increase the
servicing ratio to 1 to 88 by FY 1998 and to 1 to 100 after FY 2001. However, in
a briefing given in August 1996, CPMS stated that it believed a servicing ratio
goal of 1 to 88 more accurately reflected the Program Budget Decision goal.
CPMS reiterated its position in an October 2002 briefing.

DoD improved its overall servicing ratio through regionalization and
modernization. The regionalization goal of 1 to 71 had, for the most part, been
achieved; however, DoD had not attained its desired goal of 1 to 88. DoD had
achieved a servicing ratio of 1 to 80 by the end of FY 2002. Of the nine
Components, none achieved a servicing ratio of 1 to 100 and only two achieved a
servicing ratio meeting or exceeding 1 to 88. Table 3 shows the servicing ratio
achieved by each Component as of September 30, 2002.


                                    21
              Table 3. Ratio of Component HR Staff to Population Serviced
                                 as of September 30, 2002

                                                  HR       Population     Servicing
                     Component                   Staff      Serviced        Ratio
     Defense Finance and Accounting Service       262        26,051         1:99
     Defense Commissary Agency                    153        13,807         1:90
     Defense Logistics Agency                     384        33,560         1:87
     Navy                                       2,327       199,681         1:86
     Army                                       2,752       229,080         1:83
     Department of Defense Education Activity     222        17,650         1:80
     National Guard Bureau                        587        46,956         1:80
     Washington Headquarters Services             154        11,366         1:74
     Air Force                                  2,276       150,549         1:66

      Total                                     9,117       728,700         1:80




Army Initiative
     We commend the Army for its management initiative to provide information on
     processing civilian personnel actions in DCPDS over the Internet. To compensate
     for the shortfall of user information provided by CPMS, the Army Civilian
     Personnel Operations Center Management Agency established a Web site that
     contains current information on processing civilian personnel transactions,
     workarounds, and software patches. Users at 9 of the 11 non-Army regional
     service centers and customer support units visited stated that they used the Army
     Web site for current information and tools for processing personnel actions. The
     Army Web site includes access to an on-line desk guide; job aids, which are
     step-by-step instructions for processing various personnel transactions;
     information on current workarounds; information on software patch releases; and
     training tools. As the organization releasing the software patches and
     documenting the workarounds, CPMS was in a position to have the most current
     information but did not keep the information current. The Army, realizing a need
     for that information, took the initiative to satisfy the requirement.


Management Comments on the Finding and Audit Response
     Deputy Under Secretary of Defense (Civilian Personnel Policy) Comments. The
     Deputy Under Secretary of Defense (Civilian Personnel Policy) partially concurred
     with the finding. The Deputy Under Secretary concurred with the statements that
     DoD achieved standardization for basic personnel processing, DoD reduced
     personnel staffing, the Components did not fully use the capabilities of DCPDS, and


                                         22
the Components added nonstandard applications to the system. The Deputy Under
Secretary further concurred that the Components had to perform numerous
workarounds and received frequent software patches to make DCPDS work.

However, the Deputy Under Secretary did not concur with the statement that the
nonstandard applications were developed, the workarounds were needed, and the
patches were released because the system was deployed before it could efficiently
perform all the functions specified in the ORD. The Deputy Under Secretary
stated that an independent Qualification Operational Testing and Evaluation
report prepared by the Air Force concluded that the system was operationally
suitable and advised deployment was warranted. The Deputy Under Secretary
further stated that Component resistance to standard business processes gave rise
to the difficulties in achieving standardization.

The Deputy Under Secretary also did not concur with our assertion that CPMS did
not have clear authority to require the Components to use all the DCPDS modules
or manage the development and implementation of nonstandard applications. The
Deputy Under Secretary stated that a policy memorandum issued in October 2001
by the Under Secretary of Defense for Personnel and Readiness assigned CPMS the
responsibility for reviewing and approving all HR-related automation initiatives.
The Deputy Under Secretary also stated that CPMS is drafting a subchapter to
DoD 1400.25-M, “Department of Defense Civilian Personnel Manual,”
December 1996, to address all aspects of the recommendations in this report. The
Deputy Under Secretary further stated that lack of adherence by the Components to
policies of the Under Secretary should not be construed as lack of CPMS authority.

The Deputy Under Secretary did not concur with the assessment that there was a
material management control weakness in the CPMS oversight of DCPDS. The
Deputy Under Secretary indicated that there were strong and effective controls at
CPMS as well as policy and programmatic oversight exercised within the Office
of the Under Secretary of Defense for Personnel and Readiness.

The Deputy Under Secretary also provided updated information concerning the number
of outstanding workarounds and problem reports and commented that the security
issues related to the CATS module were Component issues and not system related.

Department of Defense Education Activity Comments. The Department of
Defense Education Activity stated that it has unique servicing requirements that
are not like the other Defense organizations and, therefore, could not change its
business processes to fully use the functionality in the DCPDS suite. The
Education Activity also stated that it was centralized under a different authority
than the other Components. In addition to the editorial comments provided, the
Education Activity commented on our use of the ORD as the means for assessing
whether DCPDS met its requirements, stating that the ORD required only four key
performance parameters be met before deployment. The Education Activity also
stated that the Integrated Database did not duplicate a DCPDS capability. In
addition, the Education Activity questioned the source of the data used to
calculate its servicing ratio in Table 3.

See the Management Comments section of the report for the complete text of
management comments.


                                    23
Audit Response. We do not agree with several of the comments made by the
Deputy Under Secretary. First, regarding deployment of the system, our statement
that the system was deployed before it was capable of performing all the functional
requirements outlined in the ORD was supported by the Air Force organization that
conducted testing and evaluation. The Air Force stated the system was
operationally suitable; however, it also recommended that the four mass action
capabilities be operational before the system was deployed, stating that if the mass
action capabilities were not improved, user workload and dissatisfaction with the
system would increase. We believe the Air Force concern was valid and those
concerns were supported by user opinions expressed during the audit.

Second, we do not agree that the October 2001 memorandum issued by the Under
Secretary of Defense for Personnel and Readiness was sufficient. Although the
memorandum gave CPMS the authority to review and approve all HR-related
automation initiatives, the Components did not accept that memorandum as
formal policy and did not establish implementing procedures. Although the
Deputy Under Secretary did not agree with our statement that CPMS lacked clear
policy to manage the development and implementation of nonstandard
applications, the action taken by CPMS—the development of the subchapter to
DoD 1400.25-M—is an excellent step that will help resolve the authority issue
identified in this report. Clearly defining the roles and responsibilities of CPMS
and the Components should help resolve some of the problems associated with the
proliferation of nonstandard applications. The change to the Manual will also
require coordination with all Components before publication, thereby reducing
Component resistance.

Third, as stated in the report, Component resistance to change was a factor in the
lack of standardization; however, we believe that system inadequacies were a
major cause of continued Component resistance. Statements by the Deputy Under
Secretary concerning the development of committees and working groups to
address improvements to the Resumix and OTA modules support our assertion.

Fourth, we do not agree that there were sufficient management controls over the
implementation of DCPDS. The deployed system did not meet ORD
requirements and the Components have not fully implemented the DCPDS
modules. CPMS did not start monitoring the numerous nonstandard applications
until March 2002 with the establishment of the Systems Innovation Subcommittee
and the list prepared by the Subcommittee was not complete. We identified
additional nonstandard applications during our site visits. However, the
publication of the DCPDS subchapter in DoD 1400.25-M should improve
management controls.

Last, although the updated data provided by the Deputy Under Secretary reflected
a reduction in the number of problem reports and workarounds, we did not update
the report because the updated information covered only part of the problem
report data we used in the report.

Regarding the comments from the Department of Defense Education Activity, we
agree that not all business processes can change; however, the goal within DoD is
for standard systems and processes. Every Component should work toward that
goal. As for the different initial policies directing regionalization, the reference in


                                      24
    the report is correct and the key point is that regionalization was required by all
    Components. The editorial comments were from the perspective of the Education
    Activity and most did not affect the report statements or the overall report
    conclusions. Further, we acknowledge that the ORD identified only four functional
    requirements as key performance parameters; however, the ORD does not state that
    meeting those functional requirements was a prerequisite to deployment nor did the
    Air Force limit its test to those four requirements. There were 68 functional
    requirements and we do not believe meeting only 4 is evidence of a fully effective
    system. Regarding the Integrated Database, it was not the Education Activity
    nonstandard application referred to in the report that duplicated functionality in
    DCPDS. Last, the data used for the Education Activity servicing ratio was provided
    by Education Activity staff.


Recommendations, Management Comments and Audit
  Response
    1. We recommend that the Under Secretary of Defense for Personnel and
    Readiness develop and issue policy that, at a minimum:

           a. Defines the roles and responsibilities of the Civilian Personnel
    Management Service and the Components in system implementation,
    ongoing design, oversight, and training for all modules in the Defense
    Civilian Personnel Data System suite.

          b. Acknowledges the charters for the various boards and
    subcommittees supporting system software and hardware upgrades and
    enhancements.

            c. Requires that the review of nonstandard applications be completed
    in a timely manner and that the Components be notified quickly of review
    results.

    Deputy Under Secretary of Defense (Civilian Personnel Policy) Comments.
    The Deputy Under Secretary of Defense (Civilian Personnel Policy) concurred,
    stating that a formal policy should be established to address and resolve issues
    regarding HR automated systems. The formal policy will be included as a
    subchapter in DoD 1400.25-M. The Deputy Under Secretary also stated that the
    governance structure for civilian HR under the direction of the Office of the
    Under Secretary of Defense for Personnel and Readiness had been in place for
    several years, including the policy and authority for HR automation.

    Air Force Comments. The Air Force concurred, stating that the Components
    should be given the opportunity for substantive input with regard to defining roles,
    responsibilities, procedures, and timelines for review of nonstandard applications.

    Audit Response. The Deputy Under Secretary’s comments are fully responsive.
    Although the Deputy Under Secretary stated the governance structure was in
    place, the Deputy Under Secretary is formalizing the memorandums into a
    published DoD policy. We agree with the Air Force that the Components should


                                        25
coordinate on the policy. Under the policy coordination process, the draft chapter
to the Manual will be coordinated with the Components prior to publication.

2. We recommend that the Director, Civilian Personnel Management
Service:

     a. Develop a systems improvement plan, in coordination with the
Components, that, at a minimum, includes:

             (1) A schedule for correcting documented software problems
and ensuring required functionality is incorporated into all the modules in
the Defense Civilian Personnel Data System suite in a timely manner.

             (2) A plan of action for the timely review, approval, and
incorporation of desired enhancements into the system, including
Component nonstandard applications approved by the Change Control
Board to become part of the system.

             (3) A survey of users, including regional service center and
customer support unit personnel, and managers who initiate actions to
determine the level of satisfaction with the system and document any
recommendations for improvements for consideration by the Change Control
Board.

Deputy Under Secretary of Defense (Civilian Personnel Policy) Comments.
The Deputy Under Secretary nonconcurred with the recommendation to develop a
schedule for correcting documented software problems and missing functionality,
stating that there are already reliable, established mechanisms for handling
problem reports (Remedy tracking system) and missing functionality (such as the
OTA working group). In addition, the DCPDS contract includes metrics
concerning problem reports and system changes, such as problem report ceilings
and repair schedules. The Deputy Under Secretary also nonconcurred with the
recommendation to develop a plan of action for the timely review of desired
enhancements and nonstandard applications, stating that the Change Control
Board handles system enhancements and the Systems Innovation Subcommittee
deals with nonstandard applications. The Deputy Under Secretary nonconcurred
with the recommendation to conduct a survey, stating a survey was conducted in
March and April as part of the DCPDS Post Implementation Plan. The results
will be used to identify areas of user concern.

Air Force Comments. The Air Force concurred, stating that the Components
should be given the opportunity to provide substantive input in developing the
systems improvement plan. The Air Force also stated that the plan should include
an ongoing effort to compare emerging HR technology with current DoD systems
and applications.

Audit Response. The Deputy Under Secretary’s comments are partially
responsive. Although the Remedy system tracks problem reports and provides
completion dates for the problems being worked and CPMS has established
groups for handling functionality issues, there is no single comprehensive plan
addressing all problem reports and missing functionality or ensuring all problems


                                    26
have been identified and are in a schedule for resolution. The Air Force
comments and the concerns expressed by the Components during the audit
indicate that the Components are not satisfied that system problems and missing
functionality issues are being adequately addressed. CPMS, in coordination with
the Components, needs to develop a comprehensive systems improvement plan.
The plan should include a schedule for the completion of outstanding software
problem reports and for incorporating functionality originally planned for DCPDS
but never provided in the system that is still desired by the users. In addition, the
plan should include system enhancements and decisions regarding nonstandard
applications in use by the Components. Although the Deputy Under Secretary
nonconcurred with the recommendation for a user survey, a survey was conducted
and the Deputy Under Secretary stated that the results will be used for
improvement and enhancement efforts. We request a copy of the survey
instrument and complete results in response to the final report. As a result of the
Air Force comments, we moved the phrase, “in coordination with the
Components,” from Recommendation 2.a.(1) to Recommendation 2.a. We
request that the Deputy Under Secretary reconsider her position regarding the
development of a systems improvement plan and provide additional comments on
the final report, as shown in Table 4.

      b. Define the capabilities that are included in the Defense Civilian
Personnel Data System suite.

Deputy Under Secretary of Defense (Civilian Personnel Policy) Comments.
The Deputy Under Secretary concurred, stating that the capabilities of DCPDS
will be included in the proposed subchapter in DoD 1400.25-M.

Air Force Comments. The Air Force concurred, adding that the Components
should be given the opportunity to ensure system capabilities are appropriately
defined.

Audit Response. The Deputy Under Secretary’s comments are fully responsive.
Regarding the Air Force comments, the Components will have an opportunity to
comment during the policy coordination process.

3. We recommend that the Assistant Secretaries of the Military Departments
(Manpower and Reserve Affairs); the Chief, National Guard Bureau; and
the Directors of the Defense Commissary Agency, the Defense Finance and
Accounting Service, the Defense Logistics Agency, the Department of Defense
Education Activity, and Washington Headquarters Services develop
organizational plans to:

      a. Revise business practices to accommodate the modules in the
Defense Civilian Personnel Data System suite, after the software problems
have been corrected and critical deficiencies have been addressed.

     b. Phase out nonstandard applications that are not approved by the
Change Control Board.




                                     27
       c. Require all nonstandard applications to be submitted to the
Civilian Personnel Management Service for approval prior to development
or purchase.

Army Comments. The Army concurred and stated that all Army nonstandard
applications in use or planned have been approved by CPMS, submitted to the
Systems Innovation Subcommittee, or will be submitted for approval. The Army
also stated that although DCPDS does not contain all the desired functionality and
there are numerous workarounds, progress has been made to reduce their number.
Further, since DCPDS was fielded, Army’s processing time for filling vacancies
has decreased substantially.

Navy Comments. The Navy did not concur or nonconcur, but expressed
concerns that CPMS does not understand the requirements of the Navy Marine
Corps Intranet program and the unique challenges for interoperability and
maintenance the program presents.

Air Force Comments. The Air Force concurred and stated that once the problems
and deficiencies with the system are corrected, no compliance issues remain, and
system performance issues are resolved, business practices may be revised where
feasible to accommodate the DCPDS modules. The Air Force stated that as
required functionality is provided, the nonstandard applications would be phased
out.

National Guard Bureau Comments. The National Guard Bureau provided
additional information regarding its reasons for not using several of the DCPDS
modules. The Bureau stated that the EOPF is no longer a nonstandard application.

Defense Commissary Agency Comments. The Defense Commissary Agency
concurred, indicating it will revise business practices to accommodate DCPDS
after the software problems have been corrected and critical deficiencies
addressed. Although the Defense Commissary Agency does not have any
nonstandard applications, future nonstandard applications will be submitted to
CPMS before development or purchase, as needed.

Department of Defense Education Activity Comments. The Department of
Defense Education Activity did not concur or nonconcur but stated that
Recommendation 3.a. may not be completely possible because certain teacher
requirements have to be accommodated.

Washington Headquarters Services Comments. Washington Headquarters
Services did not concur or nonconcur, but provided recommended wording changes.

Audit Response. Comments from the Air Force, the National Guard Bureau, and
the Defense Commissary Agency are fully responsive. We modified the report to
reflect that the EOPF is no longer a nonstandard application. The Army
comments are partially responsive. The Army did not comment on its plans to
revise business practices to accommodate the DCPDS modules after software
problems are corrected. The Navy, the Defense Logistics Agency, the Department
of Defense Education Activity, and Washington Headquarters Services provided
editorial comments but did not address the recommendation and, therefore, their


                                    28
    comments are nonresponsive. As a result of the comments from Washington
    Headquarters Services, Recommendation 3.a. was slightly modified. The Defense
    Finance and Accounting Service did not provide comments. See Table 4 for
    specific requirements for Component comments on the final report.


Management Comments Required
    The Deputy Under Secretary of Defense (Civilian Personnel Policy), the Army,
    the Navy, and the Defense organizations listed in Table 4 are requested to
    comment on the items indicated with an X in the table.


                         Table 4. Management Comments Required

     Recommendation                                  Concur/    Proposed   Completion
         Number                 Organization        Nonconcur    Action      Date

     2.a.(1) and         Deputy Under Secretary        X           X           X
     2.a.(2)             of Defense (Civilian
                         Personnel Policy)
     3.a. through 3.c.   Army                                      X           X
     3.a. through 3.c.   Navy                          X           X           X
     3.a. through 3.c.   Defense Finance and           X           X           X
                         Accounting Service
     3.a. through 3.c.   Defense Logistics Agency      X           X           X
     3.a. through 3.c.   Department of Defense         X           X           X
                         Education Activity
     3.a. through 3.c.   Washington Headquarters       X           X           X
                         Services




                                               29
Appendix A. Scope and Methodology
   To understand the design and use of DCPDS, as well as user satisfaction levels,
   we met with personnel from CPMS; its support contractor, Lockheed Martin; and
   managers and users at each of the Components. We judgmentally selected sites
   based on location, deployment date of DCPDS, and user requirements of DCPDS.
   We visited the DCPDS program managers for all 9 Components, 10 of the
   22 regional service centers, and 6 of the 302 customer support units. During our
   visits to CPMS offices in Arlington, Virginia, and San Antonio, Texas, we met
   with managers and staff regarding the design and implementation of DCPDS. We
   also discussed plans that CPMS has for DCPDS. Our meetings with Lockheed
   Martin focused on its support of the system, problem report resolution, testing,
   and system enhancements. We met with representatives from all the Military
   Departments, the National Guard Bureau, and the five Defense organizations
   using DCPDS—the Defense Commissary Agency, the Defense Finance and
   Accounting Service, the Defense Logistics Agency, the Department of Defense
   Education Activity, and Washington Headquarters Services. At the Military
   Departments, we met with all levels of users—from individuals who initiate
   personnel actions to headquarters management—to better understand the effect of
   the system on users. At each Component site visited, we discussed seven key
   issues—user satisfaction, involvement in initial and ongoing system design,
   documentation, training, reports, use of nonstandard applications, and use of the
   Internet for DCPDS information. We also observed processing of personnel
   actions to better understand the process. At selected sites, we discussed
   processing requirements that were unique to that site, such as processes the
   personnel centers in Europe used for hiring local national employees. We also
   met with personnel from the Office of the Inspector General of the Department of
   Defense to discuss the impact of changing regional service centers.

   To better understand the background, implementation schedule, and functional
   requirements of DCPDS, we reviewed DoD guidance and policy relating to HR
   management. We also examined the DoD Civilian Human Resources Strategic
   Plan for 2002 through 2008, the DoD Program Decision Memorandum on
   implementing regionalization and modernizing the systems used for civilian
   personnel processing, and Program Budget Decision 711 that directed the
   development of DCPDS. We reviewed the DCPDS ORD, mission needs
   statement, and qualification operational test and evaluation final report. We
   reviewed the statement of work for the operation, sustainment, and maintenance
   of DCPDS. In addition, to evaluate training and documentation, we reviewed the
   CPMS users and desk guides and the contents of Component civilian personnel
   Web sites related to DCPDS. The documentation and reports we reviewed were
   dated from February 1992 through September 2002.

   We performed this audit from June 2002 through June 2003 in accordance with
   generally accepted government auditing standards. We did not use computer-
   processed data to perform this audit, although we used civilian personnel
   population and HR staffing data provided by the Components to determine the
   servicing ratio for each Component. We did not validate that data.




                                      30
    This report was based on information provided during visits to the selected sites.
    The information provided during the visits regarding user satisfaction and their
    perception of system problems was testimonial in nature, which we did not
    validate. However, we observed some of the system problems, reviewed
    workaround and patch information, and received similar statements from multiple
    sources corroborating the testimonial information. We did not validate the results
    of the Navy report on OTA, nor did we validate the perceived increase in data
    errors reported by one Component. In addition, we did not obtain cost data for the
    nonstandard applications because most Components reported that the costs would
    be difficult to determine as the nonstandard applications were developed over a
    number of years and involved both in-house and contractor support.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Systems Modernization high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    management control programs for CPMS and its parent organization, the Defense
    Human Resources Activity, as they related to the implementation of DCPDS,
    specifically regarding functionality and user satisfaction. We also reviewed the
    self-assessments provided by CPMS and the Defense Human Resources Activity
    as they related to the audit objectives.

    Adequacy of Management Controls. We identified a material management
    control weakness in the CPMS oversight of DCPDS, as defined by DoD
    Instruction 5010.40. CPMS did not ensure that the system met user needs or
    functioned properly prior to deployment, which resulted in the deployment of a
    system that did not fully satisfy ORD requirements, necessitating the use of
    nonstandard applications by the Components. Further, DoD did not have
    sufficient policies to ensure roles and responsibilities were clearly outlined.
    Recommendations 1., 2., and 3., if implemented, will result in a more complete
    system and will improve standardization of DCPDS. A copy of the report will be
    provided to the senior official responsible for management controls for the Under
    Secretary of Defense for Personnel and Readiness.




                                        31
      Adequacy of Management’s Self-Evaluation. CPMS officials did not identify
      assessment of user satisfaction or ensuring that system functionality met user
      needs as assessable units. Although the Defense Human Resources Activity
      included regular meetings with the Components in their management control
      program, it did not identify or report the material management control weaknesses
      identified by the audit.


Prior Coverage
      During the last 6 years, the General Accounting Office (GAO) issued one report
      and the Office of the Inspector General of the Department of Defense (IG DoD)
      issued three reports concerning DCPDS or DoD civilian personnel processing.
      Unrestricted GAO reports can be accessed over the Internet at
      http://www.gao.gov/. Unrestricted IG DoD reports can be accessed at
      http://www.dodig.osd.mil/audit/reports.

GAO
      GAO Report No. AIMD-99-20, “Defense IRM: Alternatives Should Be
      Considered in Developing the New Civilian Personnel System,” January 27, 1999

IG DoD
      IG DoD Report No. D-2002-144, “Civilian Personnel Processing by Regional
      Service Centers That Service Multiple DoD Agencies,” September 11, 2002

      IG DoD Report No. D-2001-137, “Certification of the Defense Civilian Personnel
      Data System,” June 7, 2001

      IG DoD Report No. 98-143, “Information Assurance for the Defense Civilian
      Personnel Data System—Washington Headquarters Services,” June 3, 1998




                                         32
Appendix B. DCPDS Modules
   DCPDS is composed of the following six modules.

   Automated Reduction-in-Force. AutoRIF is an automated processing
   application that uses either data from the DCPDS database or manually entered
   data to assist in the conducting reduction-in-force actions. The application is
   designed to simplify processing, document actions, and minimize data entry for
   reductions in force. AutoRIF is designed to assist in keeping track of employees,
   actions, qualifications determinations, and other data related to reductions in
   force.

   Complaints Action Tracking System. CATS is an automated processing
   application used to track equal employment opportunity complaints and cases
   handled by personnel specialists. It is designed to track complaints from initial
   contact through final decision. It maintains a history of the complaint, including
   personnel associated with the complaint, claims and incidents associated with the
   complaint, corrective action that results, and appeals. It is intended to provide a
   record of each stage or phase in the process.

   Core Documents. The COREDOC application is an interactive, automated
   civilian personnel management system that is designed to assist managers and
   personnel specialists in describing and classifying duties and tasks; identifying
   performance objectives; staffing knowledge, skills, and abilities; and identifying
   training-related competencies. COREDOC allows managers and personnel
   specialists to retrieve a document from an inventory within COREDOC and use it
   as written or modify it as necessary to meet their needs.

   Oracle Federal HR. Oracle Federal HR is the primary module within the
   DCPDS suite. It is commercial off-the-shelf software that is designed to allow
   system users to create, coordinate, and process Requests for Personnel Actions. It
   both stores and updates employee and position data. The module has been
   augmented by DoD to support DoD requirements.

   Oracle Training Administration. OTA is an automated processing application
   for managing civilian training requirements and documenting training activity. It
   is designed to provide automated processing for all stages of civilian training
   administration, to include generating training request forms and continued service
   agreements, identifying class attendees, tracking estimated and actual costs, and
   producing certification and evaluation forms.

   Resumix. Resumix is a software application that automates the recruitment and
   staffing process. It is a commercial off-the-shelf applicant referral system that
   uses a patented artificial intelligence to extract information regarding experience
   and education from applicant résumés. It is designed to assist personnel
   specialists by significantly reducing the hours needed to process, categorize, and
   match résumés against a vacancy announcement.




                                        33
Appendix C. Patch Process

Requests for Change
    The patch process begins with a request for change to fix a problem, perform
    routine maintenance, or enhance the system. There are three types of Component
    requests.

           •   Problem Reports – documented user problems reported by Component
               help desks.

           •   Change Request Transmittals – routine maintenance requests from
               Component users, such as adding or changing a unit identification
               code.

           •   System Change Requests – new functional requirements and system
               enhancements desired by CPMS or a Component. System change
               requests also result from regulatory and legal requirements, such as
               changes in Thrift Savings Plan allowances.

    The problem reports and change request transmittals are reviewed by CPMS. The
    Change Control Board reviews the system change requests. If the request is
    approved, Lockheed Martin makes the software change and creates a software
    patch. In addition, some patches may be initiated by Oracle or Lockheed Martin.


Patch Testing and Approval
    After the patch is created it goes through a testing and approval process, after
    which it is installed on the servers for the regional service centers and other
    database servers. CPMS and Lockheed Martin are not involved with determining
    the impact of patches on the Components’ nonstandard applications. It is the
    responsibility of the Components to maintain system interfaces for their
    nonstandard applications.

    Standard Operating Procedure DCPDS-00-3, “Patch Release and Approval,”
    February 13, 2002, outlines the processes for releasing software patches. The
    standard operating procedure describes five types of patches—weekly, biweekly,
    quarterly, emergency, and patches to Oracle software.

    Weekly Updates. Weekly patches generally include table updates and changes to
    values such as unit identification codes and program element codes. The changes
    are generally documented through change request transmittals. Information about
    the change is provided to the Components early in the week for their review. At a
    minimum, the Components will be provided a 24-hour review period. If problems
    are identified, the change will be held until the next patch; otherwise, the patch is
    released to the Components.


                                         34
Biweekly Patches. Biweekly patches normally include fixes for problem reports
and change request transmittals that are not table updates. For the biweekly
patches, the support contractor provides the patch to the Components for testing.
CPMS and Lockheed Martin personnel partially test the patch before it is released,
but depend on each Component to test the elements of the patch that affect the
Component’s operation. Along with the patch, CPMS provides “read me”
documentation that outlines the content of the patch and any anticipated
downtime. The testing and approval process for biweekly patches is
approximately 2 weeks. The patch is provided through electronic mail or
Web-based downloads.

Quarterly Patches. Quarterly patches are major patch releases. Quarterly
patches are released at the end of each calendar quarter and can include fixes for
problem reports, change request transmittals, and system change requests. The
process of review and testing begins 30 days before the date of the patch with a
release to the Components of the read me documentation outlining the patch’s
contents. Testing is started by CPMS and the Components at least 2 weeks before
the patch is released.

Emergency Patches. Emergency patches implement critical repairs and address
severity level 1 or 2 problem reports. Emergency patches are implemented on an
as-needed basis.

Oracle Software Patches. Oracle software patches are Oracle-provided updates
to its applications (Oracle Federal HR and OTA) that are implemented on an
as-needed basis.




                                    35
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
  Deputy Under Secretary of Defense (Civilian Personnel Policy)
  Director, Civilian Personnel Management Service

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Manpower and Reserve Affairs)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Manpower and Reserve Affairs)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Commissary Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Director, Department of Defense Education Activity
Director, Washington Headquarters Services
Chief, National Guard Bureau

Non-Defense Federal Organization
Office of Management and Budget




                                          36
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        37
Deputy Under Secretary of Defense (Civilian
Personnel Policy) Comments




                      39
Final Report
 Reference




Revised




Page 3



Revised




Revised




Revised




               40
     Final Report
      Reference




     Revised




     Revised




41
Final Report
 Reference




Revised




               42
43
Final Report
 Reference




Pages 25-29




               44
45
Final Report
 Reference




Page 31




               46
47
Department of the Army Comments




                    48
49
Department of the Navy Comments




                    50
     Final Report
      Reference




     Revised


     Revised




     Revised
     Page 15




     Page 19




51
52
Department of the Air Force Comments




                     53
Final Report
 Reference




Revised




               54
55
               National Guard Bureau Comments
Final Report
 Reference




Revised




Revised




Revised




                                   56
Defense Commissary Agency Comments




                   57
Final Report
 Reference




Revised




               58
Defense Logistics Agency Comments




                     59
Department of Defense Education
Activity Comments




                     60
61
62
     Final Report
      Reference




     Revised




     Revised




63
Final Report
 Reference




Revised




               64
     Final Report
      Reference




     Footnote 14



     Footnote 15




65
Final Report
 Reference




Footnote 19




               66
     Final Report
      Reference




     Page 16



     Page 16




     Page 20




     Page 25



     Page 27


     Page 30
     Revised




67
Final Report
 Reference




Page 30

Page 31



Page 34
Revised




               68
Washington Headquarters Services Comments
                                            Final Report
                                             Reference




                                            Deleted




                                            Revised
                                            Page 27




                    69
Team Members
The Readiness and Logistics Support Directorate, Office of the Deputy Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Kimberley A. Caprio
Michael A. Joseph
Betsy Brilliant
Robert T. Briggs
Carol N. Gorman
W. Sterling Malcolm
Michael R. Nova
William C. Blouvet
Major Richard T. Higdon, U.S. Air Force
Elizabeth L.N. Shifflett
